IN THE SUPREME COURT OF THE UNITED STATES

No.
SEILA LAW LLC, PETITIONER

v.
CONSUMER FINANCIAL PROTECTION BUREAU

CERTIFICATE OF SERVICE

I, William T. Marks,

counsel for petitioner and a member of

the Bar of this Court, certify that, on June 28, 2019, three copies
of the Petition for a Writ of Certiorari in the above-captioned
case were

sent,

by third-party commercial carrier

for

delivery

overnight and by electronic mail, to the following counsel:
Kevin E. Friedl, Esq.
Consumer Financial Protection Bureau
1700 G Street, N.W.
Washington, DC 20552
kevin.friedl@cfpb.gov
Noel J. Francisco, Esq.
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, N.W., Room 5616
Washington, DC 20530
SupremeCtBriefs@usdoj.gov
I further certify that all parties required to be served
have been served.

